No. 19-1301
IN THE

Oupreute Court of t!je ?Nutter; Otateo
CLYDE S. BOVAT,
Petitioner,
v.
STATE OF VERMONT,
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of Vermont

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,901 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 22, 2020.

(7. /(4
Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

